HHS/OIG, Audit -"Fiscal Year 2004 Superfund Financial Activities at the National
Institute of Environmental Health Sciences,"(A-04-05-01019)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Fiscal Year 2004 Superfund Financial Activities at the National Institute of Environmental
Health Sciences," (A-04-05-01019)
February 16, 2006
Complete
Text of Report is available in PDF format (159 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether costs recorded by the National Institute
of Environmental Health Sciences (NIEHS) were allowable, allocable, and reasonable in accordance
with applicable laws and regulations.  The NIEHS Superfund costs recorded for the period
from October 1, 2003, through September 30, 2004, were allowable, allocable, and reasonable.  We
also determined that NIEHS took appropriate action to ensure that its Superfund grantees
submitted required audit reports.  Because the report contained no recommendations,
we did not request a response from NIH.